APPENDIX

1a

APPENDIX A
FILED
United States Court of Appeals
Tenth Circuit
March 2, 2021
Christopher M. Wolpert
Clerk of Court
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
ESTATE OF MADISON JODY
JENSEN, by her personal
representative Jared Jensen,
Plaintiff - Appellee,
v.
JANA CLYDE,
Defendant - Appellant,
and
DUCHESNE COUNTY, a Utah
governmental entity; DAVID
BOREN; JASON CURRY;
LOGAN CLARK; KENNON
TUBBS; ELIZABETH RICHENS;
CALEB BIRD; HOLLIE PURDY;
GERALD J. ROSS, JR.; JOHN
DOES,
Defendants.

No. 20-4024

2a

THE ESTATE OF MADISON
JODY JENSEN, by her personal
representative Jared Jensen,
Plaintiff - Appellee,
v.
KENNON TUBBS, an individual,
Defendant - Appellant,

No. 20-4025

and
DUCHESNE COUNTY, a Utah
governmental entity; DAVID
BOREN, an individual; JASON
CURRY, an individual; JANA
CLYDE, an individual; LOGAN
CLARK, an individual;
ELIZABETH RICHENS, an
individual; CALEB BIRD, an
individual; HOLLIE PURDY, an
individual; GERALD J. ROSS,
JR., an individual; JOHN DOES
1–20,
Defendants.
Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:17-CV-01031-DBB-EJF)
Frank D. Mylar (Andrew R. Hopkins, with him on the
briefs), Mylar Law, P.C., Salt Lake City, Utah, for
Defendant - Appellant Jana Clyde.

3a
Cortney Kochevar, Richards Brandt Miller Nelson,
Salt Lake City, Utah, for Defendant - Appellant
Kennon Tubbs.
Ryan B. Hancey (Scott S. Bridge, with him on the
brief), Kesler & Rust, Salt Lake City, Utah, for
Plaintiff - Appellee.
Before HOLMES and KELLY, Circuit Judges, and
LUCERO, Senior Circuit Judge.
KELLY, Circuit Judge.
This case arises from the tragic death of 21-year-old
Madison Jensen while in custody of the Duchesne
County Jail. Ms. Jensen was arrested after her father
alerted law enforcement to her drug use and
possession of drug paraphernalia. Her estate brought
this action for deprivation of civil rights under color of
state law. 42 U.S.C. § 1983. The district court granted
summary judgment in favor of the county and
qualified immunity to jail supervisors and staff. See
Estate of Jensen v. Duchesne Cnty., No. 2:17-cv-1031,
2020 WL 291398 (D. Utah Jan. 21, 2020). It denied
qualified immunity to jail medical personnel,
Defendants-Appellants (Nurse) Jana Clyde and
Dr. Kennon Tubbs. The district court held that
genuine issues of material fact precluded qualified
immunity on the Estate’s claims of (1) deliberate
indifference to serious medical needs against Nurse
Clyde, and (2) supervisory liability against Dr. Tubbs.
Our jurisdiction arises under 28 U.S.C. § 1291. See
Brown v. Montoya, 662 F.3d 1152, 1161–62 (10th Cir.

4a
2011). Exercising de novo review, we affirm as to
Ms. Clyde and reverse as to Dr. Tubbs.1
Background
On Sunday, November 27, 2016, a Duchesne County
Sheriff’s deputy responded to a call from Ms. Jensen’s
father. When the officer arrived, Ms. Jensen told him
that she was “coming off” heroin, recently smoked
marijuana, and was taking various drugs prescribed
by her doctor. Ms. Jensen was arrested for possession
of drugs and drug paraphernalia and taken to the
Duchesne County jail. Ms. Jensen was booked into jail
by Deputy Richens, who had Ms. Jensen complete an
intake questionnaire. Ms. Jensen disclosed that she
had been taking various prescriptions, provided her
history of using drugs, and stated that she recently
used heroin. Deputy Richens placed the completed
form in a medical box for the jail nurse, Ms. Clyde.
Ms. Clyde was the jail’s only Licensed Practical
Nurse (“LPN”). She assisted inmates in obtaining
prescriptions, administered medications, checked vital
signs, and reported to her superiors.
An LPN
designation does not require an associate’s or
bachelor’s degree, and Ms. Clyde was prohibited from
prescribing
medications,
conducting
health
assessments, and diagnosing medical conditions.

1
The Estate also argues in a footnote that we should
summarily affirm or, at the very least, award attorneys’ fees due
to defendants’ failure to file an adequate appendix under 10th
Cir. R. 30.1(B)(1). Aplee. Br. at 10–11 n.3. We decline to grant
either form of relief. See United States v. Hardman, 297 F.3d
1116, 1131 (10th Cir. 2002) (“Arguments raised in a perfunctory
manner, such as in a footnote, are waived.”)

5a
The jail also contracted with a private doctor to
provide some medical services for inmates including
on-call services.
Dr. Tubbs agreed to “provide
training, instruction, support, and a supervisory role
of nursing staff on how to appropriately handle triage,
sick call, medical protocols, and health care
complaints/grievances.” 3 Aplt. App. 17–22. He did
not specifically contract to create medical protocols or
policies for the jail as a whole.
Dr. Tubbs
subcontracted with a physician’s assistant (“PA”),
Logan Clark, who would make weekly visits to the jail
to provide medical care. Dr. Tubbs also provided 24/7
on-call services for the jail, and staff knew that they
could call him or PA Clark at any time. 2 Aplt. App.
171. However, Dr. Tubbs was never contacted prior to
Ms. Jensen’s death. Ultimately, Dr. Tubbs served as
the jail’s medical director and would visit three or four
times a year, while PA Clark was the jail’s primary
provider.
Following Ms. Jensen’s booking, she was placed in a
cell with another woman. Approximately 10 minutes
after arriving, Ms. Jensen complained of feeling sick
and then vomited. Ms. Jensen continued to throw up
and suffer from diarrhea the rest of that day and night.
Other officers were aware of this and knew that
Ms. Jensen had been using heroin a few days before
arriving at the jail.
The following morning, Deputy Richens took
Ms. Jensen to see Ms. Clyde at the medical office.
During that visit, Ms. Clyde thought Ms. Jensen was
doing serious drugs and that she looked like “a
walking skeleton.” 2 Aplee. App. 50–51. Ms. Jensen
told Ms. Clyde that she had been vomiting and
thought she had a stomach bug, and Ms. Clyde told

6a
her to save the vomit and diarrhea for observation.
Deputy Richens also informed Ms. Clyde that
Ms. Jensen had been using heroin a few days prior and
had tested positive for opiates upon her arrival at the
jail. Ms. Clyde took Ms. Jensen’s vital signs, gave her
Gatorade, and administered one of Ms. Jensen’s
prescriptions after confirming with PA Clark on the
phone. Ms. Jensen continued to be ill the rest of that
day, and jail staff were called to her cell several times
due to her vomiting.
On Tuesday, Ms. Jensen mostly stayed in bed, did
not eat her meals, and continued to vomit. Deputy
Richens again took Ms. Jensen to see Ms. Clyde and
told her that Ms. Jensen was still vomiting. Ms. Clyde
states that she was not informed of the continued
vomiting because, if she had been, she would have
gone to Ms. Jensen’s cell to determine how much vomit
there was and if there was any blood. During this
visit, Ms. Clyde did not take Ms. Jensen’s vital signs.
Later that day, Ms. Jensen’s cellmate called a deputy
to tell him that Ms. Jensen was vomiting so much that
it was causing a mess. That night, Ms. Jensen was
taken out of her cell, but due to her dizziness and
difficulty walking, she was placed in a medical
observation cell. Ms. Clyde agreed with this move.
Ms. Jensen continued to lay in bed and vomit, and she
was given more Gatorade.
After Deputy Richens told Ms. Clyde that
Ms. Jensen was weak and having a hard time walking,
Ms. Clyde asked to have Ms. Jensen fill out a medical
request form to see PA Clark when he visited the jail
in two days. Ms. Jensen indicated on the form that she
had been “puking for 4 days straight, runs, diarrhea,
can’t hold anything down not even water.” 1 Aplee.

7a
App. 89. Ms. Clyde reviewed the form but thought
Ms. Jensen’s comments about vomiting for four days
referred to dates before she arrived at jail; however,
she did not seek more information. At the time,
Ms. Clyde did not tell PA Clark or Dr. Tubbs about
Ms. Jensen’s condition.
On Wednesday, Ms. Clyde went to Ms. Jensen’s
observation cell to give her Gatorade but did not take
her vital signs. Deputy Bird, who took Ms. Jensen’s
medication to her cell, noted that Ms. Jensen was
unable to get out of bed and that there was vomit in
the cell. He then told Ms. Clyde that Ms. Jensen
looked sick and could use some help.
Finally, on Thursday, jail staff reported to
Ms. Clyde that Ms. Jensen had been vomiting through
the night, and Ms. Clyde agreed to give her more
Gatorade. Jason Curry, the jail commander, arrived
that day and talked with Ms. Clyde about
Ms. Jensen’s condition discussing the possibility that
she was going through heroin withdrawal. Ms. Clyde
reaffirmed that she thought it was a stomach bug.
Around 1:00 p.m., the jail’s video recording system
captured Ms. Jensen drinking some water, vomiting a
brown substance, then rolling off her bed and having
a seizure.
Approximately 30 minutes later, Ms. Clyde and PA
Clark discovered Ms. Jensen had died in her cell. PA
Clark was at the jail that day to see patients, however
Ms. Clyde did not inform him of Ms. Jensen’s
condition until after he had treated the other inmates.
The cause of death was cardiac arrhythmia from
dehydration due to opiate withdrawal. Ms. Jensen
had gallstones, which was evidence of extreme

8a
dehydration, and lost 17 pounds from the time she was
booked.
While Ms. Jensen was at the jail, Dr. Tubbs was
never contacted by Ms. Clyde or other jail staff about
her condition. Ms. Clyde stated that had she been
aware of Ms. Jensen’s actual condition she would have
called PA Clark or Dr. Tubbs based on her training
and common sense. But there was a conflict about
when jail staff should contact them regarding an
inmate who is vomiting or showing signs of
dehydration. There was also not a specific written
policy about when to take and record vital signs for an
inmate experiencing opiate withdrawal symptoms.
Ultimately, Ms. Clyde and Dr. Tubbs had not heard of
someone dying due to opiate withdrawal, and this was
the first incident in Dr. Tubbs’ 19 years of working
with inmates.
Discussion
We normally lack jurisdiction over the denial of
summary judgment. Cox v. Glanz, 800 F.3d 1231,
1242 (10th Cir. 2015). However, when the district
court denies qualified immunity to a public official,
that decision is immediately appealable when it
involves an abstract issue of law, rather than one of
evidentiary sufficiency. Id. The district court denied
qualified immunity based on genuine disputes of
material fact. See Estate of Jensen, 2020 WL 291398,
at *15–16. As a result, defendants contend that the
district court applied an incorrect standard of review
by “improperly conflat[ing] the summary judgment
standard with qualified immunity’s two-part
analysis.” Aplt. Tubbs Br. at 19; see Aplt. Clyde Br. at
27.

9a
Of course, when a defendant raises a qualified
immunity defense on summary judgment, a plaintiff
must respond with evidence tending to show that:
(1) the defendant violated a constitutional or statutory
right and (2) the right was clearly established at the
time in question. Ullery v. Bradley, 949 F.3d 1282,
1289 (10th Cir. 2020). While defendants are correct
that the district court did not exactly follow this
analysis, this does not require automatic reversal (as
defendants urge) and we may exercise jurisdiction.
See Cox, 800 F.3d at 1243.
When we review a district court’s denial of qualified
immunity on summary judgment, we generally “take,
as given, the facts that the district court assumed
when it denied summary judgment” and make our
legal determination regarding qualified immunity.
Johnson v. Jones, 515 U.S. 304, 319 (1995). When it is
unclear exactly what facts the district court relied
upon, it may be necessary to review the record, in the
light most favorable to the non-moving party, to
ascertain which facts the district court likely assumed.
Id. While Dr. Tubbs seems to understand that this is
the standard, see Aplt. Tubbs Br. at 20, Ms. Clyde
raises additional factual arguments. In her brief she
suggests that even if we ordinarily defer to the district
court’s factual recitation, we should not do so here
because the court failed to “identify the particular
charged conduct” and its version of the facts is
“blatantly contradicted by the record.” Aplt. Clyde Br.
at 25 (quoting Lewis v. Tripp, 604 F.3d 1221, 1225–26
(10th Cir. 2010)). But our task is not to determine
whether there are genuine issues of material fact.
Rather, we ask whether the conduct attributed to the
defendant seeking qualified immunity, which the

10a
district court found to be supported by the record (and
which will often be controverted), would still entitle
the defendant to qualified immunity. Behrens v.
Pelletier, 516 U.S. 299, 312–13 (1996). That standard
is satisfied here. The district court made clear which
facts it found supported denying qualified immunity.
Therefore, we proceed to consider whether Ms. Clyde
and Dr. Tubbs are entitled to qualified immunity.
A.

Dr. Tubbs

The Estate argues that Dr. Tubbs is not entitled to
qualified immunity because he is a private doctor. The
district court noted that the Tenth Circuit had yet to
decide that specific issue. Estate of Jensen, 2020 WL
291398, at *15 (citing Kellum v. Mares, 657 F. App’x
763, 768 n.3 (10th Cir. 2016)). However, it ultimately
determined that Dr. Tubbs would not be able to assert
qualified immunity because there were factual
questions as to whether he was deliberately
indifferent. Id. We disagree and conclude that
(1) Dr. Tubbs is entitled to assert qualified immunity
under the particular facts of this case, and
(2) Dr. Tubbs did not violate Ms. Jensen’s clearly
established constitutional rights.
1.

Whether Dr. Tubbs May Claim Qualified
Immunity

Because Dr. Tubbs is a private physician, as
opposed to a government employee, we must
determine whether he is entitled to claim qualified
immunity. See Weise v. Casper, 507 F.3d 1260, 1264
(10th Cir. 2007). When answering this question, we
look “both to history and to ‘the special policy concerns
involved in suing government officials.’” Richardson
v. McKnight, 521 U.S. 399, 404 (1997) (quoting Wyatt

11a
v. Cole, 504 U.S. 158, 167 (1992)). Under this
framework, the Supreme Court has denied the
qualified-immunity defense to private prison guards,
id. at 412, but has granted it to a private attorney
retained by the government to conduct an internal
investigation, Filarsky v. Delia, 566 U.S. 377, 393–94
(2012). Since Filarsky was decided, we have allowed a
private doctor performing prisoner executions to claim
qualified immunity. Estate of Lockett by & through
Lockett v. Fallin, 841 F.3d 1098, 1108–09 (10th Cir.
2016).
Beginning with history, we consider “the common
law as it existed when Congress passed § 1983 in
1871.” Filarsky, 566 U.S. at 384. In Filarsky, the
Supreme Court stated that § 1983 is to be read “in
harmony with general principles of tort immunities
and defenses” and those principles will apply unless
abrogated by the legislature. Id. at 389 (citations
omitted). One of these principles is that immunity
should not vary depending on whether the individual
works for the government on a part-time or full-time
basis. Id. Accordingly, the Court determined that a
private attorney retained on a part-time basis to
conduct an internal investigation had common-law
grounds for claiming immunity. Id.
Likewise, Dr. Tubbs was carrying out government
responsibilities — namely, providing medical services
to inmates — but was merely doing so on a part-time
basis. He was working alongside the jail’s officers and
LPN, Ms. Clyde, whose full-time job was to monitor
and provide some care for the inmates. In fact, had
Dr. Tubbs been working as a doctor for the county on
a full-time basis (e.g., like Ms. Clyde does as an LPN),
he would have certainly been able to raise a qualified-

12a
immunity defense. Cf. Estate of Lockett, 841 F.3d at
1108–09.
Thus, common law principles support
Dr. Tubbs’ ability to raise a qualified-immunity
defense.
Turning next to the policy considerations, three
objectives guide our analysis: (1) protecting against
“unwarranted timidity on the part of public officials;”
(2) ensuring “that talented candidates are not
deterred by the threat of damages suits from entering
public service;” and (3) guarding against employees
being distracted from their duties. Richardson, 521
U.S. at 408–411 (internal quotations omitted). Given
the unique facts of this case, these concerns support
our conclusion that Dr. Tubbs may raise the defense.
The first and most important consideration is
preventing unwarranted timidity on the part of
government workers. See Richardson, 521 U.S. at 409.
This concern is critical because we want to ensure that
those working on behalf of the government “do so ‘with
the decisiveness and the judgment required by the
public good.’” Filarsky, 566 U.S. at 390 (quoting
Scheuer v. Rhodes, 416 U.S. 232, 240 (1974)). In
Richardson, this concern cut against allowing
immunity. There, the Court was convinced that the
strong market pressures faced by the private prison
would overcome any “overly timid, insufficiently
vigorous, unduly fearful, or ‘nonarduous’ employee job
performance.” Richardson, 521 U.S. at 410. In
particular, the private prison was “systematically
organized to perform a major administrative task for
profit,” it had less state supervision, it had insurance
to cover civil rights tort liability, and it had pressure
from competing firms that could take over the
contract. Id. at 409–10.

13a
Dr. Tubbs’ situation is different.
Dr. Tubbs
essentially ran a two-man shop (including his
subcontract with PA Clark) when providing a discrete
function to the prison. While Dr. Tubbs had some
leeway in his decisions, it was the county that was in
charge of implementing policies and training its
officers. Dr. Tubbs was required to provide care in
accordance with Utah Department of Corrections and
Utah Medicaid guidelines, the county had to authorize
any elective care, and Dr. Tubbs could only prescribe
medication from the prison’s formulary. 3 Aplt. App.
17. Even though Dr. Tubbs had agreed to supervise
and train Ms. Clyde, he still had no ability to discipline
or fire her. See Richardson, 521 U.S. at 410–11. In
this capacity, Dr. Tubbs does not resemble a private
doctor working in a private firm. See id. at 410. As
observed by the Fifth Circuit, private doctors
providing services at a jail “act within a government
system, not a private one,” and “market pressures at
play within a purely private firm simply do not reach
them there.” Perniciaro v. Lea, 901 F.3d 241, 253 (5th
Cir. 2018).
Second, talented candidates could be deterred from
furnishing important public services if the qualifiedimmunity defense was not available in this type of
case. The government has a strong interest in
attracting individuals with “specialized knowledge or
expertise” to public service, often on a part-time basis.
Filarsky, 566 U.S. at 390. Here, the Duchesne County
jail (like many other jails) opted not to have an inhouse doctor but instead use Dr. Tubb’s 24/7 on-call
service and weekly visits to address its medical needs.
Because a physician like Dr. Tubbs does not “depend
on the government for [his] livelihood,” he would be

14a
free to pursue work that did not expose him to
comparable liability. Id. Furthermore, there is a
possibility that Dr. Tubbs “could be left holding the
bag,” considering many of the jail’s officers have
already been granted qualified immunity. Id. at 391.
We doubt that a private doctor has the market power
to insist on conditions to ameliorate the risk inherent
in this situation.
Third, we must consider the interest in protecting
employees from the distraction that litigation may
cause while performing their official duties. Although
this concern alone is not “sufficient grounds for an
immunity,” Richardson, 521 U.S. at 411, this case
raises the possibility that both Dr. Tubbs and those he
worked with could be distracted by this litigation. See
Filarksy, 566 U.S. at 391.
The Estate relies heavily on McCullum v. Tepe, 693
F.3d 696 (6th Cir. 2012), to argue that qualified
immunity does not apply to Dr. Tubbs.2 In that case
the Sixth Circuit analyzed whether a private
The Estate also points to other circuits concluding that
qualified immunity is not available to a private medical
professional providing services to a jail. See Estate of Clark v.
Walker, 865 F.3d 544, 551 (7th Cir. 2017) (denying qualified
immunity to private nurse); McCullum v. Tepe, 693 F.3d 696, 704
(6th Cir. 2012) (denying qualified immunity to private
psychiatrist); Jensen v. Lane Cnty., 222 F.3d 570, 577 (9th Cir.
2000) (same); Hinson v. Edmond, 192 F.3d 1342, 1347 (11th Cir.
1999), amended, 205 F.3d 1264 (11th Cir. 2000) (denying
qualified immunity to private physician). But see Perniciaro v.
Lea, 901 F.3d 241, 255 (5th Cir. 2018) (allowing private
psychiatrists to assert the qualified-immunity defense). As the
Fifth Circuit points out, many of these cases were decided preFilarsky and may not align precisely with Filarsky’s mode of
analysis. See Perniciaro, 901 F.3d at 252 n.9.
2

15a
psychiatrist working for a prison “would have been
immune from a suit for damages at common law.” Id.
at 702. After reviewing 18th- and 19th-century cases,
the court concluded there was no common-law
tradition of immunity for private doctors. Id. at 702–
04. As for the policy considerations, the Sixth Circuit
highlighted the need to deter constitutional violations
and the fact that the doctors could offset liability with
better pay and benefits. Id. at 704. Although Tepe
provides persuasive support for the Estate’s
argument, we believe the circumstances of this case —
i.e., an individual doctor with limited control over
policy working alongside government employees —
compel a different result. We also question whether
Tepe’s historical analysis fully comports with the
Supreme Court’s analysis in Filarsky. See Perniciaro,
901 F.3d at 252 n.9 (“With respect for [the Sixth
Circuit’s] deep historical analysis of whether doctors
had any special immunity at common law, we read
Filarsky to require a different focus.”
(citation
omitted)). The Filarsky Court was clear that the
common law provided individuals with “immunity for
actions taken while engaged in public service on a
temporary or occasional basis.” 566 U.S. at 388–89.
That determination controls the outcome of this case.
Therefore, given the common law principles and
underlying policy concerns, we conclude that
Dr. Tubbs may claim qualified immunity. However,
we highlight the unique circumstances of this case
that led to allowing Dr. Tubbs to raise the defense. See
Richardson, 521 U.S. at 413 (answering the qualified
immunity question narrowly and based on context);
Estate of Lockett, 841 F.3d at 1108.

16a
2.

Supervisory Liability and Qualified
Immunity

The Estate bases its supervisory liability claim on
Dr. Tubbs’ failure to establish a protocol or provide
training to Ms. Clyde. The Estate must establish
three
elements:
“(1) personal
involvement;
(2) causation; and (3) state of mind.” Keith v. Koerner,
843 F.3d 833, 838 (10th Cir. 2016). A supervisor is
personally involved when he or she created,
promulgated, implemented, or had responsibility over
the policy at issue. Id. It can also be shown by a
“complete failure to train” or such “reckless or grossly
negligent” training that makes misconduct nearly
inevitable. Id. For causation, the Estate must show
that Dr. Tubbs “set in motion a series of events that
[he] knew or reasonably should have known would
cause others to deprive [Ms. Jensen] of her
constitutional rights.” Id. at 847 (citation omitted).
Finally, for the state-of-mind element, Dr. Tubbs must
have “knowingly created a substantial risk of
constitutional injury.” Id. at 848 (citation omitted).
Although Dr. Tubbs’ set of protocols and training
may not have been the most robust, the facts
demonstrate that the Estate cannot establish the
requisite degree of personal involvement, causation,
and state of mind to impose supervisory liability. As
noted, Ms. Clyde was an LPN who had limited ability
in providing medical services to inmates. She could
not
prescribe
medications,
conduct
health
assessments, or diagnose medical conditions. While
she received some training from Dr. Tubbs and PA
Clark and had training as a part of licensure, her job
often comprised of notifying Dr. Tubbs and PA Clark
when medical issues arose. As a result, Dr. Tubbs had

17a
in place a 24/7 on-call system where Ms. Clyde or any
jail officers could call him or PA Clark with their
concerns. In fact, Ms. Clyde specifically testified in
her deposition that had she been aware of an inmate
“complaining of puking for four days straight, runs,
diarrhea, can’t hold anything down, not even water,”
she would have immediately called PA Clark or
Dr. Tubbs. 4 Aplt. App. 107. She knew this based on
both her training and on her common sense. Given
that Ms. Clyde knew she could call Dr. Tubbs when
Ms. Jensen presented with these symptoms, we
cannot conclude that any alleged failings by Dr. Tubbs
to implement policies or provide training caused
Ms. Jensen’s death.
Even if we were to conclude that the Estate
established a viable claim for supervisory liability, the
right involved was not clearly established. For a right
to be clearly established, “the contours of the right
must be sufficiently clear that a reasonable official
would understand that what he is doing violates that
right.” Quinn v. Young, 780 F.3d 998, 1004–05 (10th
Cir. 2015) (alteration omitted) (quoting Wilson v.
Montano, 715 F.3d 847, 852 (10th Cir. 2013)). We do
not define the right “at a high level of generality,” but
rather it “must be ‘particularized’ to the facts of the
case.” White v. Pauly, 137 S. Ct. 548, 552 (2017)
(citations omitted).
For clearly established law, we typically require “a
Supreme Court or Tenth Circuit decision on point, or
the clearly established weight of authority from other
courts . . . .” Estate of B.I.C. v. Gillen, 761 F.3d 1099,
1106 (10th Cir. 2014). Here, the Estate relies almost
exclusively on a Sixth Circuit decision and an
unpublished district court decision and we are not

18a
persuaded. See Shadrick v. Hopkins Cnty., 805 F.3d
724 (6th Cir. 2015); Jenkins v. Woody, No. 3:15-cv-355,
2017 WL 342062 (E.D. Va. Jan. 21, 2017). Any
comparison to Keith lacks the necessary factual
similarities. In that case, we concluded that the
warden in charge of the prison could be found
deliberately indifferent to sexual abuse by its
employees. See Keith, 843 F.3d at 846–47. That is not
enough to make it clear to Dr. Tubbs that he was
violating Ms. Jensen’s rights in this context.
For these reasons, Dr. Tubbs is entitled to qualified
immunity.
B.

Ms. Clyde

The Estate bases its claim of deliberate indifference
to serious medical needs against Ms. Clyde on her
failure to secure medical treatment despite obvious
risks to Ms. Jensen’s health. Ms. Clyde contends that
she took reasonable steps to provide care and that she
was not aware that Ms. Jensen faced serious medical
needs. She also argues that even if she violated
Ms. Jensen’s rights, those rights were not clearly
established.
The district court denied qualified
immunity noting that a reasonable jury could conclude
that she was deliberately indifferent depending on
some of the operative facts which were in dispute.
Estate of Jensen, 2020 WL 291398, at *16.
A claim for deliberate indifference to serious
medical needs has an objective and subjective element.
Quintana v. Santa Fe Bd. of Comm’rs, 973 F.3d 1022,
1028–29 (10th Cir. 2020). The objective element
considers whether the harm suffered was sufficiently
serious. Id. at 1029. Ms. Clyde does not appear to
contest this issue on appeal. Aplt. Clyde Br. at 29. The

19a
subjective element asks whether Ms. Clyde “knew
[Ms. Jensen] faced a substantial risk of harm and
disregarded that risk, by failing to take reasonable
measures to abate it.” Quintana, 973 F.3d at 1029
(quoting Martinez v. Beggs, 563 F.3d 1082, 1088 (10th
Cir. 2009)).
Thus, the Estate must show that
Ms. Clyde was both “aware of facts from which the
inference could be drawn that a substantial risk of
serious harm exists,” and she must “draw the
inference.” Farmer v. Brennan, 511 U.S. 825, 837
(1994). This can be established when the risks would
be obvious to a reasonable person. Mata v. Saiz, 427
F.3d 745, 752 (10th Cir. 2005). We conclude that the
Estate has sufficiently shown deliberate indifference.
Relying on Quintana, Ms. Clyde contends that
“frequent vomiting alone does not present an obvious
risk of severe and dangerous withdrawal,” something
more, such as bloody vomit, is needed. See 973 F.3d at
1029–30. But here, there was something more.
Viewing the facts in the light most favorable to the
Estate, evidence has shown Ms. Clyde was aware that:
Ms. Jensen had opiates in her system; she looked sick
and was “walking like a skeleton”; she had been soiling
her sheets and had diarrhea; she had been vomiting
for four days straight; and that she was unable to keep
food or water down.
We believe that these
circumstances — particularly her self-report that she
had been vomiting for four days and could not keep
down water — present a risk of harm that would be
obvious to a reasonable person. See Mata, 427 F.3d at
752.
Despite this obvious risk to Ms. Jensen, Ms. Clyde
failed to take any reasonable measures. Ms. Clyde
testified that had she been aware of an inmate

20a
“complaining of puking for four days straight, runs,
diarrhea, can’t hold anything down, not even water,”
she would have immediately called PA Clark or
Dr. Tubbs. 4 Aplt. App. 107. However, the Estate’s
evidence shows that she was aware of those exact
symptoms but failed to call Dr. Tubbs or PA Clark.
Even when PA Clark was present at the jail on
Thursday, Ms. Clyde did not inform him about
Ms. Jensen’s condition until the end of his rounds. It
appears the only course of action Ms. Clyde really took
was approving of the decision to place her in a medical
observation cell and giving her Gatorade. These are
hardly reasonable measures given the dire
circumstances. Cf. Sealock v. Colorado, 218 F.3d 1205,
1208, 1210–11 (10th Cir. 2000). And to the extent
Ms. Clyde classifies her conduct as a “misdiagnosis,” a
trier of fact could conclude that she did not just
misdiagnose Ms. Jensen, she “completely refused to
fulfill her duty as gatekeeper.” Mata, 427 F.3d at 758.
Finally, Ms. Clyde argues that even if she did
violate Ms. Jensen’s rights, those rights were not
clearly established as of November 2016. However, in
Quintana we concluded that in January 2016 — ten
months prior to Ms. Jensen’s death — it had been
“clearly established that when a detainee has obvious
and serious medical needs, ignoring those needs
necessarily violates the detainee’s constitutional
rights.” 973 F.3d at 1033 (reaching this conclusion
based on Mata v. Saiz and Sealock v. Colorado). We
concluded that in the specific context of an officer
disregarding symptoms of heroin withdrawal and
internal injury. Id.
Ms. Clyde attempts to distinguish this trio of cases
— Quintana, Mata, and Sealock — by arguing that

21a
she, unlike the defendants in those cases, did
something to help Ms. Jensen. However, Ms. Clyde
faced a similar situation as the PA in Sealock. There,
the evidence showed that the PA was informed of an
inmate’s chest pain, so the PA gave him a shot of
Phenergan and told him to rest. Sealock, 218 F.3d at
1208. The PA later testified that had he been told of
chest pain he would have immediately called an
ambulance. Id. at 1211. We ultimately concluded that
when an individual’s sole purpose is “to serve as a
gatekeeper for other medical personnel,” and that
person delays or refuses to fulfill the gatekeeper role,
he may be liable for deliberate indifference. Id.
Ms. Clyde was the gatekeeper in this case and she
failed to fulfill that role when she chose to give
Ms. Jensen Gatorade instead of calling Dr. Tubbs or
PA Clark. Accordingly, Sealock provided sufficient
notice to Ms. Clyde that what she was doing violated
Ms. Jensen’s rights to medical care. See Quinn, 780
F.3d at 1004–05.
For these reasons, we affirm the district court’s
decision that Ms. Clyde is not entitled to qualified
immunity.
AFFIRMED in part, REVERSED in part, and
REMANDED for proceedings consistent with this
opinion.

22a

APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH

ESTATE OF MADISON
JODY JENSEN,
Plaintiff,
vs.
DUCHESNE COUNTY,
ET AL.,
Defendants.

MEMORANDUM
DECISION AND
ORDER
Case No.
2:17CV1031DAK
Judge Dale A.
Kimball

This matter is before the court on several motions
for summary judgment: Defendant Elizabeth Richens’
Motion for Summary Judgment [Docket No. 122];
Defendant Jana Clyde’s Motion for Summary
Judgment [Docket No. 133]; Defendant David Boren’s
Motion for Summary Judgment [Docket No. 135];
Defendant Hollie Purdy’s Motion for Summary
Judgment [Docket No. 136]; Defendant Gerald J. Ross
Jr.’s Motion for Summary Judgment [Docket No. 137];
Defendant Jason Curry’s Motion for Summary
Judgment [Docket No. 138]; Defendant Caleb Bird’s
Motion for Summary Judgment [Docket No. 139];
Defendant Duchesne County’s Motion for Summary
Judgment [Docket No. 140]; and Defendant Kennon
Tubbs’ Motion for Summary Judgment [Docket

23a
No. 141]. On December 5, 2019, the court held a
hearing on the motions. At the hearing: Ryan B.
Hancey and Adam Knorr represented Plaintiff Estate
of Madison Jody Jensen; Michael W. Homer and Jesse
C. Trentadue represented Duchesne County, Caleb
Bird, Jason Curry, Gerald Ross, Hollie Purdy, David
Boren, and Elizabeth Richens (“Duchesne County
Defendants”); Cortney Kochevar and Clair Di Caro
represented Defendant Kennon Tubbs; and Frank D.
Mylar and Andrew Hopkins represented Jana Clyde.
The court took the motions under advisement. After
carefully considering the memoranda and other
materials submitted by the parties, as well as the law
and facts relating to the motions, the court issues the
following Memorandum Decision and Order.
BACKGROUND
On November 27, 2016, Jared Jensen observed his
21-year-old daughter, Madison, exhibiting odd and
erratic behavior and he found what he believed to be
drug paraphernalia and residue in her room. He
called the Duchesne County Sheriff’s Office, and
Deputy Jared Harrison of the Duchesne County
Sheriff’s Office responded to the call. When Deputy
Harrison arrived at the house, he spoke to Madison
and found drug paraphernalia in her bedroom.
Madison told Harrison that she was “coming off”
heroin, had last used four days earlier, and had
disposed of her heroin supply that day. She also
admitted to recently smoking marijuana and told
Harrison she was taking Tramadol, Wellbutrin, and
Clonidine as prescribed by her physician. Harrison
arrested Madison for internal possession of drugs and
possession of drug paraphernalia and took her to the
Duchesne County Jail.

24a
Deputy Elizabeth Richens, a corrections officer at
the Duchesne County Jail, helped to book Madison
into the Jail at 1:34pm on Sunday, November 27, 2016.
Deputy Richens completed the Intake Questionnaire
for Madison and both she and Madison signed the
form. During the booking process, Madison disclosed
that she suffered from anxiety and depression for
which she had been prescribed and was taking
Wellbutrin. Madison also noted that she was taking
Tramadol for pain and Clonidine for high blood
pressure.
Madison had taken the prescription
medication with her to the Jail. She also reported that
she had a history of using heroin, pills, marijuana, and
that she had recently used heroin. Richens had
Madison take a urinalysis test for drugs.
According to jail policy or custom, Richens placed
the intake questionnaire in a medical box designated
for the jail nurse. At the time, Duchesne County
employed a jail nurse, Jana Clyde, who was
responsible for overseeing the health of the jail
inmates. Nurse Clyde was a Licensed Practical Nurse
(LPN) who began working at the Jail in April of 2013.
Nurse Clyde’s LPN is not the equivalent of an
associate’s or bachelor’s degree program. As a jail
nurse, Nurse Clyde primarily facilitated getting
doctors or pharmacies to write prescriptions that could
be filled in the Jail, administering medications to
inmates, checking vital signs, and reporting to her
superiors. By law, she was not permitted to prescribe
medications, conduct health assessments, or diagnose
and treat any medical condition.
In addition to the jail nurse, Duchesne County
contracted with an independent medical provider,
Dr. Kennon Tubbs to provide medical services to

25a
inmates at the Duchesne County Jail. Dr. Tubbs also
subcontracted with physician’s assistant Logan Clark
to perform some of Dr. Tubbs’ medical care duties at
the Jail. The contract provides that Dr. Tubbs will act
as the Medical Director for the Jail and Clark will act
as the primary provider for the facility. Clark visited
the Jail weekly to provide medical services, including
meeting with nursing staff to address any issues.
Dr. Tubbs typically did not visit the Jail unless he was
filling in for Clark, approximately three to four times
a year.
Jail personnel placed Madison in a cell with Maria
Hardinger. Madison complained to Hardinger of
feeling sick and within ten minutes Madison vomited.
She continued to vomit and suffer from diarrhea
throughout the day and night. Deputy Richens saw
Madison throwing up before she left work that day.
Deputy Gerald Ross is a Duchesne County Deputy
Sheriff, who was performing controller duties at the
Jail on Sunday. He saw Madison when she was being
booked into Jail. He spoke to the arresting officer and
learned that Madison had used heroin four days before
she arrived at the Jail. Other than observing her from
the control room, Ross had no interactions with
Madison on Sunday.
When Richens returned to work on Monday
morning, Richens took Madison to visit Clyde in the
Jail’s medical office. Madison told Clyde she had been
vomiting and believed she had a stomach bug. Clyde
told Madison to save her vomit and diarrhea for Clyde
to observe. Richens told Clyde that Madison had
admitted to using heroin a few days before being

26a
booked into jail and that her urinalysis test was
positive for opiates.
Sergeant Hollie Purdy, another corrections officer
assigned to the Duchesne County Jail saw Madison in
the medical unit with Clyde and Richens. Purdy
thought that Madison looked anorexic or on drugs.
Clyde took Madison’s vital signs and observed that
Madison’s blood pressure was high. Clyde gave
Madison a Gatorade and called the jail’s physician’s
assistant, Logan Clark. Clyde informed Clark that
Madison had been vomiting. Clyde claims she told
Clark about all three of Madison’s prescription
medications and he only approved administration of
the Clonidine. But Clark claims she only mentioned
the Clonidine.
Madison told Richens that she had thrown up on her
bedding, and Richens gave her new bedding. The rest
of that day, Madison continued to feel ill, stayed in her
cell, and did not eat her meals. Madison and
Hardinger used the call button in their cell several
times to notify Jail staff that Madison was ill and
vomiting. The Jail staff responded that they were
aware that Madison was ill but they did not provide
any specific medical care for her symptoms. Around
6:00 p.m., Madison was able to leave her cell to take a
shower but continued to be ill.
Deputy Ross saw Madison on Monday drinking a
glass of water and throwing up a little bit. He knew
that she had been taken to the medical unit, that her
issues were being addressed by medical staff, and that
she was receiving Gatorade. Ross thought that
Madison was eating a little bit, but not much.

27a
The following day, Tuesday, Madison continued to
vomit, stayed in bed, and did not eat her meals.
Richens took Madison to Clyde’s office again that
morning and noted that she looked noticeably weaker
and paler than the previous day. Sergeant Purdy saw
Madison with Clyde and Richens when she passed by
the Jail’s medical unit. Richens informed Clyde that
Madison was still vomiting, but Clyde disputes that
she was told of continued vomiting. Nurse Clyde
claims that if any of the staff had informed her that
Madison was throwing up or having diarrhea, she
would have gone to Madison’s cell to see how much
there was and see whether there was any blood in it.
Richens continued to check on Madison throughout
the day.
Later that day, Hardinger pushed the call button
and informed the deputy in the control room that
Madison was continuing to vomit so violently that it
was causing a mess. The deputy told her she could
leave her cell to retrieve cleaning supplies to clean up
the mess but to stop pushing the call button. Clyde
claims that no jail personnel ever informed her that
Madison and Hardinger were pushing the call button
or reporting anything.
During that evening, Richens took Madison to see
Detective Monty Nay. She was dizzy and having a
hard time walking. Nay observed Madison and told
Richens to watch her closely. Richens and Deputy
Ross moved Madison to an observation cell where jail
staff could more easily observe her condition. Richens
informed Clyde that Madison was being moved to an
observation cell, and Clyde agreed to the move.
Richens observed Madison lying in bed and vomiting
several times. Richens got authorization from Clyde

28a
to provide Madison with Gatorade. Deputy Ross
stated that Madison had not stopped eating but she
was not eating well.
Richens claims that she reported to Nurse Clyde
that Madison was weak, dizzy, and having a hard time
walking. Nurse Clyde asked Richens to have Madison
fill out a Medical Request Form to see the Clark on
Thursday. Richens took the form to Madison and had
her fill it out. Madison misdated the form and stated
that she had been “puking for 4 days straight, runs,
diarrhea, can’t hold anything down not even water.”
But she stated that she was not detoxing and that she
thought it was a stomach bug. Richens gave the form
to Clyde, who reviewed it. Clyde claims that she did
not know that Madison had been continuing to vomit
after Sunday. Clyde states she thought that Madison
may have been referring to the dates before she
arrived at the Jail. Despite her uncertainty, however,
Clyde did not seek more information or clarify the
situation with Madison.
Neither Clyde nor Richens contacted Clark or
Dr. Tubbs to inform them that Madison had been
moved to an observation cell or that she had filled out
a medical request form. Although Richens thought
that Madison should be closely observed, she did not
think that Madison required urgent care from the
doctor. At that time, she had never experienced or
heard of an inmate dying of heroin withdrawal or
dehydration. Richens did not work on Wednesday,
November 30, 2016, and did not see Madison again.
On Wednesday, Clyde visited Madison’s cell once
that day to pass her a Gatorade, but did not inquire as
to her condition or take her vital signs. Clyde attached

29a
Madison’s medical request form to a medical file for
Clark to review when he arrived at the Jail the next
day. Deputy Caleb Bird took Madison’s medication to
her cell and she was unable to get out of bed to take it.
Bird entered her room to give her the medication and
saw what appeared to be vomit. Bird states that he
told Clyde that Madison was too weak to get out of bed
and there was vomit in the cell. Bird claims that Clyde
told him that she knew Madison was vomiting and
withdrawing from heroin. Clyde contends that Jail
personnel did not report Madison’s condition to her.
In any event, no Jail personnel contacted Clark or
Dr. Tubbs about Madison’s condition on November 30,
2019. And, other than filling out the request form that
Richens had brought her on Tuesday, Madison had not
requested to see a doctor.
That night, Bird told his wife that Madison looked
like she was going to die because “she was just like a
skeleton.” Bird, however, told investigators that he
did not think that Madison was actually going to die
and was shocked to learn of her death the next day.
Before Madison’s death, Bird had never heard of
anyone dying in the jail from heroin withdrawal or
dehydration.
On Thursday, December 1, 2019, Jail employees
reported that Madison had been vomiting through the
night and Sergeant Purdy asked Clyde if she could
give Madison a Gatorade. Clyde agreed. Purdy put a
Gatorade on the food pass of Madison’s cell, and told
her it was there, but had no real conversation with her.
Purdy said there was not a lot they could do for
inmates experiencing drug withdrawal. She stated
that they just have to go through the process and that,

30a
in her experience, the only thing they could do was
give them Gatorade. As far as Purdy knew, Madison
had been receiving Gatorade regularly.
When Lieutenant Jason Curry, the Jail
Commander, arrived on his shift Thursday, he talked
to Clyde about Madison. Jason Curry is a sergeant at
the Duchesne County Jail. In 2016, he was a
lieutenant and the commanding officer of the Jail. The
majority of Sergeant Curry’s duties were
administrative. He did not have any direct contact
with Madison during her incarceration. He learned
that she was an inmate on Thursday morning, the day
she passed away.
Nurse Jana Clyde told Sergeant Curry that
Madison had the stomach flu and had been moved to
an observation cell. They also discussed whether
Madison was going through heroin withdrawals, but
Nurse Clyde told him she thought it was a stomach flu.
Sergeant Curry understood that someone going
through opiate withdrawal could be nauseous,
vomiting, or possibly have diarrhea.
Curry testified that, in 2016, the Jail’s practice if an
inmate was vomiting or experiencing diarrhea was to
contact medical, put the inmate in a cell that had
water, and give the inmate Gatorade. Sergeant Curry
had experience with inmates withdrawing from heroin
and expected the withdrawal to take 3–5 days
maximum. Before Madison died, Sergeant Curry did
not know that an individual could die from opiate
withdrawal or dehydration.
The last time an officer checked on Madison was at
10:08 a.m. Purdy stopped by Madison’s cell and saw
her sitting on the bed with her feet up and back

31a
against the wall. Purdy asked Madison if she wanted
to take a shower, and Madison said no. Purdy told
Madison that she would come back in a little bit and
see if she wanted to then. Madison said okay. Purdy
did not think that Madison was in need of urgent care
by a physician. Prior to Madison’s death, Purdy had
never experienced or heard of an inmate dying from
heroin withdrawal or dehydration.
Just before 1:00 p.m., the Jail’s video camera system
recorded Madison drinking some water and then
vomiting a brown liquid substance. At 12:59 p.m., she
had a seizure-like episode which caused her to roll off
her cell bed and onto the floor. Her body continued to
twitch for a couple of minutes and then she laid flat on
the ground. At 1:28 p.m., Physician’s Assistant Clark
and Nurse Clyde found Madison deceased in her cell.
Clark had arrived at the Jail around 9:00 a.m. that
day. He visited the Jail every Thursday and stayed
until he had seen all the inmates who needed to be
seen. Clark reviewed the files and determined the
order in which he would see them. He would generally
treat the patients in the medical observation cells last.
According to Clark, Clyde did not provide him with
Madison’s medical file or medical request form on the
morning of December 1, 2019. But, according to Clyde,
she and Clark reviewed and discussed Madison’s
medical request form before Clark saw any inmates
that day. Nevertheless, Clyde stated that she did not
think that Madison’s need for care was urgent because
Clyde had requested that Madison fill out the request
form to see Clark in case she was still feeling unwell
on Thursday. Madison, herself, had not asked to see a
doctor. Clark claims that after he had treated the

32a
other inmates, Clyde told him about Madison and they
then went to check on her.
In Madison’s case, Dr. Tubbs was never contacted
by Clyde or any of the Jail personnel. Dr. Tubbs’
specific contractual duties included providing
telephone on-call service for consultation regarding
triage and appropriate medical care. Dr. Tubbs also
agreed to “provide training, instruction, support, and
a supervisory role of nursing staff on how to
appropriately handle triage, sick call, medical
protocols, and health care complaints/grievances.”
At all relevant times, Nurse Clyde was the only
nurse working at the Jail. During the weekly sick calls
and meetings with nursing staff, Dr. Tubbs or Clark
would provide on-the-job training and instruction to
Clyde regarding how to triage specific healthcare
requests. She was also expected to bring her existing
LPN knowledge and experience when she began
working at the Jail. As an LPN, however, Nurse Clyde
could not make nursing assessments and could not
implement standing orders. Dr. Tubbs testified that if
he or Clark were aware of any Jail nurse performing
their job wrong or needing help, they would give that
nurse advice, instruction, and training. Prior to
Madison’s death, Dr. Tubbs was not aware of any
incident that suggested Nurse Clyde needed specific
training or a remedial course.
Clyde states that she was not given a Jail policies
and procedures manual at anytime prior to Madison’s
death and she did not receive any training from any
other defendant on the Jail’s medical policies and
procedures. But Dr. Tubbs testified that Nurse Clyde
knew that she should call Clark or Dr. Tubbs if she

33a
witnesses an inmate violently vomiting over a 12-hour
period or had seen an inmate’s saved vomit. At her
deposition, Nurse Clyde testified that if she had
known Madison’s actual condition, she would have
called Clark or Tubbs based on her training and
common sense.
Clyde believed that she was not required to take an
inmate’s vital signs each day even if she knew the
inmate was exhibiting obvious symptoms of severe
dehydration. But according to Clark, Clark had
advised Clyde to take and record vital signs of inmates
who were experiencing heroin or opiate withdrawal
symptoms or vomiting and experiencing diarrhea.
There was no specific written policy in place regarding
this practice at the time of Madison’s death. The
policy, procedure, or custom for treating an inmate
exhibiting symptoms of dehydration was to provide
the inmate with Gatorade and contact medical
personnel. Although Clyde knew she could contact
Clark and Dr. Tubbs with medical questions, there is
conflicting testimony about when she was expected to
contact them regarding an inmate who was vomiting,
experiencing diarrhea, or exhibiting signs of
dehydration.
Dr. Tubbs did not contract to train anyone other
than the Jail nursing staff. In addition, Dr. Tubbs did
not contract with the Jail to establish medical
protocols, policies, or procedures at the Jail. Jail
standards were developed and implemented by the
Sheriff’s association, the County attorney’s office, and
the Jail’s sheriff. Nevertheless, prior to Madison’s
death, Dr. Tubbs had never heard of anyone dying at
the Duchesne County Jail, or in the prison system,
because of opiate withdrawal. Madison’s death is the

34a
only such death that he is aware of in his 19-year
career of working with thousands of inmates.
Sheriff Boren would sign off on standards and
policies for the Jail before they were implemented.
The Jail had standard operating procedures and
general orders, as well as “verbal policies and
procedures.”
Jail policies and procedures were
reviewed during monthly staff meetings, which were
usually led by a senior administrative officer. Prior to
Madison’s death, the Jail did not have a policy
instructing officers how to handle situations involving
inmates withdrawing from opiates. All of the officers
knew that they could contact medical personnel if an
inmate appeared to need care. All of the officers in this
case either contacted Nurse Clyde or knew that she
had been contacted about Madison’s condition.
According to Sheriff Boren, before Madison’s death,
the fact that an inmate was vomiting and/or
experiencing diarrhea or other flu-like symptoms
would not necessarily be considered a serious medical
condition. At the time of Madison’s incarceration,
Sheriff Boren was also unaware that vomiting and
diarrhea were symptoms of opiate withdrawal. Jail
policy at the time was to notify the medical staff or a
supervisor if an inmate was vomiting or experiencing
diarrhea. Officers would also give Gatorade to an
inmate who was vomiting. Jail officers would brief the
next shift of such situations as well. Sheriff Boren
believes that the policies were followed at the time of
Madison’s incarceration.
Jail personnel also knew they could call an
ambulance to transport an inmate needing emergency
care to the hospital. Before Madison’s death, the Jail

35a
did not employ on-site personnel who could administer
intravenous fluids to inmates exhibiting signs of
severe dehydration.
In addition, a medical request form completed by an
inmate would be reviewed within 24 hours and would
result in either an appointment with PA Clark during
his Thursday on-site clinic hours or a phone call to
Clark to determine if the Jail needed to call an
ambulance for transport to the hospital emergency
room. In addition, an inmate who was ill or injured
could be moved to a cell enabling medical observation.
Prior to Madison’s death, Sheriff Boren had not known
of any deaths or serious medical consequences
resulting from opiate withdrawal or dehydration.
After Madison’s death, the Jail requested an outside
agency conduct an independent investigation into the
incident.
The Uintah County Sheriff’s Office
investigated the matter. Clark and Clyde told the
investigator that they knew Madison was
withdrawing from heroin and that she had been placed
on the Jail’s heroin withdrawal protocol.
On December 2, 2016, Michael Belenky, M.D., of the
Utah Office of Medical Examiner, performed a medical
examination of Madison’s body and determined the
immediate cause of death to be cardiac arrhythmia
from dehydration due to opiate withdrawal. Madison
had gallstones, which was evidence of extreme
dehydration, and her weight was 112 pounds,
seventeen pounds less than her booking weight.
Madison’s estate filed the present § 1983 civil rights
lawsuit against Duchesne County and several of the
individual jail officers and medical staff. Among
several other claims, the Second Amended Complaint

36a
contains
supervisor
liability
claims
against
Defendants Tubbs and Clark for failure to implement
policies, procedures, and training regarding inmates
suffering from opiate withdrawal and severe
dehydration. The Second Amended Complaint also
contains an individual deliberate indifference claim
against Clark for failure to see Madison within four
hours of his arrival at the jail on the date of her death.
DISCUSSION
Duchesne County’s Motion for
Summary Judgment
Duchesne County moves for summary judgment on
the Estate’s municipal liability claim under 42 U.S.C.
§ 1983.
A municipality can be liable under
Section 1983 “if the governmental body itself ‘subjects’
a person to a deprivation of rights or ‘causes’ a person
‘to be subjected’ to such deprivation.” Connick v.
Thompson, 563 U.S. 51, 60 (2011) (quoting Monnell v.
NYC Dept. of Social Servs., 436 U.S. 658, 692 (1972)).
“To establish a municipality’s liability under § 1983, a
plaintiff must ‘prove (1) the entity executed a policy or
custom (2) that caused the plaintiff to suffer
deprivation of constitutional or other federal rights.’”
Spradley v. LeFlore Cty. Detention Ctr. Pub. Trust Bd.,
764 Fed. Appx. 692, 703 (10th Cir. 2019) (quoting Moss
v. Kopp, 559 F.3d 1155, 1168 (10th Cir. 2009)). The
Estate claims that the County failed to adequately
train Jail staff on policies, procedures, or customs
regarding medical intervention when an inmate is
exhibiting signs of severe dehydration, including
protocols about monitoring fluid intake, checking vital
signs, and otherwise intervening.

37a
1.

Policy or Custom

The County argues that its policies and customs did
not violate Madison’s constitutional rights. In the
Tenth Circuit, a county’s policies and/or customs
include, but are not limited to: (1) a formal regulation
or policy statement; (2) an informal custom amounting
to a widespread practice that, although not authorized
by written law or express municipal policy, is so
permanent and well settled as to constitute a custom
or usage with the force of law; (3) the decisions of
employees with final policymaking authority; (4) the
ratification by such final policymakers of the
decisions—and the basis for them—of subordinates to
whom authority was delegated subject to these
policymakers’ review and approval; or (5) the failure
to adequately train or supervise employees, so long as
that failure results from deliberate indifference to the
injuries that may be caused. Estate of Martinez v.
Taylor, 176 F. Supp. 3d 1217, 1230 (D. Colo. 2016).
“A municipal policy or custom may take the form
of . . . the ‘failure to adequately train or supervise
employees, so long as that failure results from
deliberate indifference to the injuries that may be
caused.’” Bryson v. City of Oklahoma City, 627 F.3d
784, 788 (10th Cir. 2010). The Supreme Court has
explained that a “municipality’s culpability for a
deprivation of rights is at its most tenuous where a
claim turns on a failure to train.” Connick, 563 U.S.
at 61. “To satisfy the statute, a municipality’s failure
to train its employees in a relevant respect must
amount to ‘deliberate indifference to the rights of
persons with whom the [untrained employees] come
into contact.’” Id. (citations omitted). “Only then ‘can
such a shortcoming be properly thought of as a city

38a
“policy or custom” that is actionable under § 1983,’” Id.
(citations omitted).
“Deliberate indifference is a stringent standard of
fault, requiring proof that a municipal actor
disregarded a known or obvious consequence of his
action.” Id. “The deliberate indifference standard may
be satisfied when the municipality has actual or
constructive notice that its actions or failure to act is
substantially certain to result in a constitutional
violation, and it consciously or deliberately chooses to
disregard the risk of harm.” Bryson, 627 F.3d at 789.
In harmony with this standard, the Tenth Circuit has
held “[d]eliberate indifference to serious medical needs
may be shown by proving there are such gross
deficiencies in staffing, facilities, equipment, or
procedures that the inmate is effectively denied access
to adequate medical care.” Garcia v. Salt Lake Cnty.,
768 F.2d 303, 308 (10th Cir. 1985).
“In most instances, notice can be established by
proving the existence of a pattern of tortious conduct.”
Bryson, 627 F.3d at 789. “In a narrow range of
circumstances, however, deliberate indifference may
be found absent a pattern of unconstitutional behavior
if a violation of federal rights is a highly predictable or
plainly obvious consequence of a municipality’s action
or inaction, such as when a municipality fails to train
an employee in specific skills needed to handle
recurring situations, thus presenting an obvious
potential for constitutional violations.” Id.
In this case, there is no evidence of a pattern of
tortious conduct. The County contracted with medical
personnel and had a doctor, physician’s assistant, and
nurse to deal with medical issues that arose at the

39a
Jail. Jail personnel knew to notify medical personnel
if an inmate was vomiting or experiencing diarrhea,
they knew they could contact PA Clark or Dr. Tubbs
directly, they knew to give the inmate Gatorade, and
they knew they could move the inmate to an
observation cell. Given that there is no evidence of any
previous incidents regarding inmates withdrawing
from opiates, the training appears to have been
sufficient to address recurring situations in the Jail.
The County Defendants testified that inmates going
through withdrawals was a common occurrence at the
Jail. Yet there is no evidence of any prior incidents at
the Jail involving inmates vomiting to the point of
dehydration or death. The County was not on notice
of the potential problem.
Without actual notice, the question is whether “the
need for more or different training is so obvious, and
the inadequacy so likely to result in the violation of
constitutional rights, that the policymakers of the city
can reasonably be said to have been deliberately
indifferent to the need.” City of Canton, 489 U.S. at
390. The Supreme Court has recognized that such an
occurrence is rare. Connick, 563 U.S. at 67.
“The Supreme Court has made clear that merely
showing that additional training would have been
helpful or could have avoided the injury is not
sufficient to establish municipal liability.” Hunter,
2019 WL 2422499, Case No. 2:16cv1248, at *10. “In
virtually every instance where a person has had his or
her constitutional rights violated by a city employee, a
§ 1983 plaintiff will be able to point to something the
city ‘could have done’ to prevent the unfortunate
incident.” City of Canton, 489 U.S. at 392. “But
showing merely that additional training would have

40a
been helpful in making difficult decisions does not
establish municipal liability.” Connick, 563 U.S. at 68.
The single-incident liability the Estate alleges
requires evidence that training was so deficient that a
constitutional violation was certain to occur. But,
there is no evidence to support that finding.
Dr. Tubbs, PA Clark, and Nurse Clyde all had
sufficient medical training to address the situation
and the officers at the Jail were adequately trained to
report Madison’s condition to the medical personnel.
The Supreme Court has recognized that professional
training is sufficient training to defend a “failure to
train” claim. Connick, 563 U.S. at 68. This is not a
case where there was a complete lack of attention to
the inmate’s medical needs. The Jail employees made
sure Nurse Clyde was aware of Madison’s condition,
gave her Gatorade, and moved her to an observation
cell. While Jail employees had experience with
inmates vomiting and withdrawing from opiates, none
of them had ever experienced or even heard of someone
dying from dehydration or opiate withdrawal.
Dr. Tubbs and PA Clark were on call at all times and
Nurse Clyde and Jail employees testified that they
knew they could call them at any time.
The
unfortunate fact that Nurse Clyde did not contact
them regarding Madison’s condition does not rise to
the level of deliberate indifference in terms of staffing
and training. The court concludes that no reasonable
jury could find that the procedures and training were
so deficient as to qualify for single-incident liability.
Moreover, there was no need for someone at the Jail
to be able to administer intravenous fluids. Dr. Tubbs
testified that he would not approve intravenous fluid
at the Jail, stating that “if a patient is so sick that they

41a
need IV fluid, they need to be at the hospital.” The Jail
was adequately staffed with on-site medical personnel
and medical providers who could be contacted at any
time. The procedures were in place for an appropriate
response to inmates’ medical needs. The fact that a
mistake may have occurred in this instance does not
mean that the County’s procedures were so
inadequate as to rise to the level of deliberate
indifference to the inmates’ medical needs. “‘Proving
that an injury or accident could have been avoided if
an [employee] had had better or more training,
sufficient to equip him to avoid the particular injurycausing conduct’ will not suffice.’”
Connickv.
Thompson, 563 U.S. 51, 68 (2011) (quoting Canton,
489 U.S. at 391. No reasonable jury could conclude
that a violation of an inmate’s rights was certain to
occur given the County’s policies and procedures.
Accordingly, the court concludes that the Estate has
failed to show municipal liability on the part of
Duchesne County.
Therefore, the court grants
Duchesne County’s motion for summary judgment.
Individual Defendant’s Motions for
Summary Judgment
All of the individual Defendants, except Clark,
moved for summary judgment, arguing that they are
entitled to qualified immunity and that they were not
deliberately indifferent to Madison’s medical needs.
There are three general categories of individual
defendants: Jail supervisors who did not interact with
Madison but may have supervisory liability; Jail staff
who had some interaction with Madison at the Jail;
and medical personnel.

42a
Because the individual Defendants have raised
qualified immunity as a defense, the court must
determine whether the undisputed facts demonstrate
that each Defendant violated Madison’s constitutional
rights, and if so, whether the constitutional right at
issue was clearly established at the time of the alleged
violation.1 Pearson v. Callahan, 555 U.S. 223, 232
(2009). If material facts are not in dispute, the
question of qualified immunity is a legal one for the
court to decide. Medina v. Cram, 252 F.3d 1124, 1129
(10th Cir. 2001).
In determining whether the constitutional right is
clearly established, the contours of the right must be
sufficiently clear that a reasonable official would
understand that he or she was violating that right.
Brousseau v. Haugen, 543 U.S. 194, 199 (2004). The
Estate asserts that each Defendant was deliberately
indifferent to Madison’s serious medical needs. The
Tenth Circuit has defined deliberate indifference as
follows:
“[A]n official . . . acts with deliberate
indifference if [his or her] conduct . . . disregards a
known or obvious risk that is very likely to result in
the violation of a prisoner’s constitutional rights.”
Barie v. Grand County, 119 F.3d 862, 869 (10th Cir.
1992). To meet this standard, a plaintiff must “show
that prison officials were consciously aware that the
prisoner faced a substantial risk of harm and wantonly
disregarded the risk by failing to take reasonable
measures to abate it.” Farmer v. Brennan, 511 U.S.
825, 847 (1994).
The court will address whether Dr. Tubbs and Nurse Clyde
are able to assert qualified immunity as contract medical
employees when it specifically analyzes their motions.
1

43a
In determining deliberate indifference, the court is
required to employ a two-step analysis involving an
objective component and a subjective component.
Sealock v. Colorado, 218 F.3d 1205, 1209 (10th Cir.
2000).
The objective component of deliberate
indifference is met if the deprivation is “sufficiently
serious.” Farmer, 511 U.S. at 834. A medical need is
sufficiently serious if it is one that has been diagnosed
by a physician as mandating treatment or one that is
so obvious that even a lay person would easily
recognize the necessity for a doctor’s attention. Hunt
v. Uphoff, 199 F.3d 1220, 1224 (10th Cir. 1999). The
subjective component is met only if an official “knows
of and disregards an excessive risk to inmate health or
safety; the official must both be aware of facts from
which the inference could be drawn that a substantial
risk of serious harm exists, and he [or she] must also
draw the inference.” Farmer, 511 U.S. at 837.
A.

Jail Supervisors – Sheriff David Boren’s
and Sergeant Jason Curry

Defendants David Boren and Jason Curry move for
summary judgment in their favor on the Estate’s
claims for supervisory liability under Section 1983.
Neither Boren nor Curry had any personal interaction
with Madison. Rather, the Estate’s claims against
them are based on their respective supervisory
positions as Duchesne County Sheriff and Duchesne
County Jail Commander. As such, the Estate asserts
they failed to “create, enforce, or offer training on any
policies, procedures, or customs regarding what to do
upon learning that an inmate was exhibiting obvious
signs of severe dehydration, including protocols about
monitoring fluid intake, checking vital signs, and
otherwise intervening.”

44a
To succeed on a claim of supervisor liability,
Plaintiff must “show an ‘affirmative link’ between” the
supervisor and the violation of constitutional rights.
Perry v. Durborow, 892 F.3d 1235, 1241 (10th Cir.
2011).
Section 1983 “imposes liability for a
defendant’s own actions.” Henry v. Storey, 658 F.3d
1235, 1241 (10th Cir. 2011). “[T]o demonstrate such
an affirmative link, [the Estate] has to establish
‘(1) personal involvement; (2) causation; and (3) state
of mind.’” Id.
Personal involvement can be satisfied by showing
that an official was “responsible for but failed to create
and enforce policies to protect” Madison. Keith v.
Kroener, 843 F.3d 833, 837 (10th Cir. 2016). To
establish causation, the Estate has to show that the
official “set in motion a series of events that [he] knew
or reasonably should have known would cause others
to deprive [inmates] of constitutional rights.” Id. at
847. Finally, the Estate must “establish the requisite
state of mind,” which is deliberate indifference. Id. at
847–48. To establish that Boren and Curry were
deliberately indifferent to Madison’s serious medical
needs, the Estate must show that Boren and Curry
(1) were “aware of facts from which the inference could
be drawn that a substantial risk of serious harm
existed”; (2) “actually drew the inference”; and
(3) were “aware of and fail[ed] to take reasonable steps
to alleviate the risk.” Id. at 848.
1.

Sheriff Boren

Sheriff Boren created, approved, and enforced Jail
policies.
When an inmate was vomiting and
experiencing diarrhea, he expected that medical
personnel would be made aware of the problem, that

45a
the inmate would be given Gatorade, and that the
inmate would be housed in a cell allowing medical
observation. The evidence before the court is that
these practices were routinely followed with all
inmates and followed in this case with Madison. There
is no evidence of a pattern of officers not following
these practices. Therefore, Sheriff Boren had no
reason to believe that Jail practices were not being
followed or that he needed to enforce these policies or
practices. The issue, therefore, is whether these
practices were adequate under constitutional
standards.
The parties dispute whether, by implementing these
practices, Sheriff Boren set a series of events in motion
that would have deprived Madison of her
constitutional rights. The Estate argues that the Jail’s
practices were certain to eventually lead to a situation
like Madison’s. However, it is undisputed that the Jail
had been following its practices for several years, the
Jail routinely had inmates going through
withdrawals, and there had never been a case like
Madison’s. There is no evidence that the Jail was on
notice that its protocol would deprive Madison of her
constitutional rights. Sheriff Boren had no reason to
believe that such an event would occur if his officers
were trained to observe an inmate’s condition, notify
medical personnel of an inmate’s condition, and
provide the inmate with Gatorade.
The Estate has not shown that Sheriff Boren was
aware of facts from which he could infer that a
substantial risk of harm existed to inmates like
Madison. He had never heard of an inmate dying from
dehydration and believed he had practices in place to
prevent that from happening. Even if Sheriff Boren

46a
knew that vomiting and diarrhea could lead to
dehydration, which in turn could lead to death, this
knowledge is not enough to establish that the practices
the Jail had in place were not sufficient to address the
problem. Staff knew to contact medical personnel,
give Gatorade, and observe the inmate. This practice
does not establish deliberate indifference.
The Estate argues that courts have found that jail
supervisors, like Sheriff Boren, could be liable for
deliberate indifference in factual scenarios similar to
this case. In Shadrick v. Hopkins County, Ky, 805 F.3d
724 (6th Cir. 2015), the court found that a lack of
training of LPN nurses as to how to handle recurring
situations could subject supervisors to liability for
deliberate indifference. Id. at 739. Although mere
negligence was not enough to show deliberate
indifference, the plaintiff did not need to show actual
intent to cause harm only something akin to
recklessness. Id. at 737. The court concluded that “a
reasonable jury . . . could determine that SHP’s failure
to train and supervise its LPN nurses in meeting their
constitutional obligations demonstrates SHP’s own
deliberate indifference to the highly predictable
consequence that an LPN nurse will commit a
constitutional violation.” Id. at 740. The court also
found that “[r]easonable jurors could . . . determine
that SHP’s inadequate training and supervision
actually caused, or was closely related to, the
[inmate]’s injury and death.” Id. at 743.
In Shadrick, the county in that case had no policy
on how to deal with a medical emergency. Id. at 740.
That is not the situation in this case. Every member
of the jail staff testified that they knew that they could
inform Nurse Clyde of the situation, call PA Clark or

47a
Dr. Tubbs directly, or send an inmate with an urgent
need for care to the hospital. Every staff member
testified that they knew these were proper responses
to a medical situation that seemed life-threatening.
The Shadrick court said that establishing municipal
liability based on a single incident was only available
“‘in a narrow range of circumstances’ where a federal
rights violation ‘may be a highly predictable
consequence of a failure to equip [employees] with
specific tools to handle recurring situations.’” Id. at
739. “In such cases, ‘it may happen that in light of the
duties assigned to specific officers or employees the
need for more or different training is so obvious, and
the inadequacy so likely to result in the violation of
constitutional rights, that the policymakers . . . can
reasonably said to have been deliberately indifferent
to the need.’” Id.
However, in this case, Sheriff Boren was not
responsible for training and supervising Nurse Clyde,
the LPN employed at the Jail. Under Dr. Tubbs’
contract with the County, Dr. Tubbs was responsible
for training and supervising Nurse Clyde. There is not
an obvious need for additional training in this case
with respect to Jail staff. Jail staff notified Nurse
Clyde of the situation, placed Madison in an
observation cell, and provided her with Gatorade. Jail
and medical staff had repeatedly seen and successfully
treated inmates who were throwing up, experiencing
diarrhea, and/or going through withdrawals. Jail
officers received training on how to observe and report
to medical personnel. The Jail contracted with
medical personnel to deal with serious medical needs.

48a
Each of the officers in this case either reported
Jensen’s condition to medical or reasonably believed
that her condition had been reported to medical and
that she was receiving treatment. Nurse Clyde also
knew to report an inmate’s symptoms to PA Clark or
Dr. Tubbs. Based on the record, the Estate cannot
establish that Sheriff Boren failed to train or
implement Jail policies that set in motion the events
that led to Madison’s unfortunate death.
The Estate also fails to establish that Sheriff Boren
either knew or reasonably should have known that his
actions would result in the violation of Madison’s
constitutional rights. Personal involvement cannot be
based on vicarious liability. Accordingly, the court
concludes that Sheriff Boren is entitled to qualified
immunity because he was not deliberately indifferent
to Madison’s serious medical needs.
2.

Jason Curry

Sergeant Jason Curry was a lieutenant in the Jail
and the commanding officer of the Jail at the time of
Madison’s incarceration. The majority of Curry’s
duties in 2016 were administrative. Curry did not
have any direct contact with Madison. He learned of
Madison on Thursday morning, the date of her death,
because she was in an observation cell. Curry asked
Nurse Clyde if Madison was going through heroin
withdrawals, and Clyde responded that she thought it
was the stomach flu. In 2016, Curry stated that the
Jail’s practice if an inmate was vomiting or
experiencing diarrhea was to contact medical, put the
inmate in a cell with water, and give the inmate
Gatorade. Before Madison passed away, Curry had

49a
never heard of an inmate dying of heroin withdrawals
or dehydration.
As with Sheriff Boren, the Estate’s claims against
Curry are for supervisor liability. Curry argues that
the protocols and training that were in place had
always been sufficient and were constitutionally
appropriate. As the court decided with respect to
Sheriff Boren, the Estate has not demonstrated that
the Jail policies and training of staff members to
report medical conditions to the medical personnel,
provide the inmate with Gatorade, and place the
inmate in an observation cell was deliberately
indifferent to Madison’s medical needs. Accordingly,
the court grants Curry qualified immunity on the
Estate’s claims.
B.

Jail Staff – Richens, Purdy, Ross, and Bird

The Jail staff members who had contact with
Madison while she was detained also move for
summary judgment, arguing that they were not
deliberately indifferent to Madison’s medical needs
and are entitled to qualified immunity.
1.

Deputy Elizabeth Richens

The Estate argues that Richens is not entitled to
qualified immunity because a genuine issue exists as
to whether, in violation of clearly established law,
Richens knowingly disregarded a substantial risk to
Madison’s health by not obtaining medical treatment
for Madison’s obvious dehydration. Jail officials must
“ensur[e] inmates receive the basic necessities of
adequate food, clothing, shelter, and medical care” and
reasonably guarantee inmates’ safety. Barney v.
Pulsipher, 143 F.3d 1299, 1310 (10th Cir. 1998). A
prison official violates clearly established law if he or

50a
she ‘knows of and disregards an excessive risk to
inmate health or safety.” Keith v. Koerner, 707 F.3d
1185, 1188 (10th Cir. 2013). Deputy Richens argues
that the Estate cannot meet that subjective component
of the deliberate indifference standard because
Richens did not know that Madison faced a substantial
risk of harm and she did not disregard that risk.
In this case, it is undisputed that Deputy Richens
repeatedly took Madison to see Nurse Clyde, gave her
Gatorade, and put her in an observation cell. Richens
had no knowledge that withdrawing from heroin posed
a serious risk to Madison. She had repeatedly done
the same things with other inmates who had the same
symptoms and none of them had died. In Stafford v.
Stewart, the Tenth Circuit held that even if the
prisoner had complained to the officer about certain
symptoms, those symptoms would not prove that the
officer knew of the serious risk of harm posed to the
prisoner, and the officer was entitled to qualified
immunity. 461 Fed. Appx. 767, 770–71 (10th Cir.
2012).
Even if Deputy Richens had known of the
substantial risk to Madison’s health and safety posed
by her possible heroin withdrawal and symptoms of
dehydration, Richens responded to Madison’s medical
complaints and observable physical condition.
Richens’ response, and not the ultimate outcome, is
what is relevant. Negligence in diagnosing and/or
treating an inmate’s medical condition is not
deliberate indifference. Estelle v. Gamble, 429 U.S. 97,
105–06 (1976).
Deputy Richens did not ignore Madison’s medical
complaints or symptoms. She repeatedly assisted her

51a
in seeing the nurse, made sure she had Gatorade, and
put her in an observation cell. Prison officials, who are
not medical staff capable of treating an inmate, play a
gatekeeper role. Spradley v. LeFlore Cnty. Detention
Ctr. Pub. Tr. Bd., 764 Fed. Appx. 692, 700 (10th Cir.
2019) (holding that if a prison official “knows that his
role in a particular medical emergency is solely to
serve as a gatekeeper to other medical personnel
capable of treating the condition, and if he delays or
refuses to fulfill that gatekeeper role due to deliberate
indifference, . . . he may also be liable for deliberate
indifference from denying access to medical care.”).
Richens did not delay or refuse to fulfill that role by
denying or delaying Madison access to medical
professionals. Richens took Madison to see Nurse
Clyde and reported Madison’s condition to Nurse
Clyde. It was reasonable for Richens to believe that
Nurse Clyde would provide Madison with the medical
care she needed or report her condition to PA Clark or
Dr. Tubbs if additional care was necessary. There was
no evidence that Madison appeared to need urgent
care when Nurse Clyde was not available. Richens
never believed that Madison needed to see a physician
immediately. She had never heard of someone dying
from heroin withdrawal or dehydration. Richens is
judged by what she knew and did in November of 2016,
not by 20/20 hindsight. There is no evidence that
anything Richens did or did not do resulted in
substantial harm to Jensen. She tried to get Madison
medical care from Nurse Clyde several times. Under
the circumstances, Richens acted reasonably given her
lack of knowledge with respect to the risk to Madison’s
health and safety posed by heroin withdrawal.
Accordingly, the court concludes that Richens is

52a
entitled to qualified immunity under the deliberate
indifference standard.
2.

Sergeant Holli Purdy’s Motion

Sergeant Purdy was not present when Madison was
booked into Jail and only saw her three times over the
ensuing days. As with Richens, Sergeant Purdy
played what is referred to as a “gatekeeper role.”
Spradley v. LeFlore Cnty. Detention Ctr. Pub. Tr. Bd.,
764 Fed. Appx. 692, 700 (10th Cir. 2019) (holding that
if a prison official “knows that his role in a particular
medical emergency is solely to serve as a gatekeeper
to other medical personnel capable of treating the
condition, and if he delays or refuses to fulfill that
gatekeeper role due to deliberate indifference, . . . he
may also be liable for deliberate indifference from
denying access to medical care.”).
The Estate alleges that Sergeant Purdy violated
Madison’s constitutional rights by deliberately
denying or delaying her access to medical care in
conscious disregard of the obvious risk of harm caused
by severe dehydration. But Sergeant Purdy fulfilled
her gatekeeper role by reporting Madison’s condition
to Nurse Clyde.
Sergeant Purdy lacked any
knowledge of a risk to Madison from vomiting.
Sergeant Purdy may have known that Madison was
withdrawing from heroin and was vomiting and
experiencing diarrhea as a consequence, but had no
knowledge of or reason to know that this posed a
serious risk to Madison’s health. Sergeant Purdy had
previously seen numerous inmates with these same
symptoms and conditions and none of them had died.
Even if Madison complained to Purdy about her
symptoms, Purdy did not realize the seriousness of the

53a
condition. Purdy had always given a Gatorade for
such symptoms and it had always helped. Purdy also
knew to forward the symptoms along to Nurse Clyde,
which she did. Therefore, Purdy appropriately
responded to Madison’s needs and provided her access
to medical personnel. Purdy did not ignore Madison’s
needs. Madison did not complain to Purdy of any of
her symptoms. Purdy did learn that Madison was
throwing up, but she did not refuse Madison’s request
for medical treatment or remain inactive. In fact,
Purdy acted by asking after Madison when she first
saw her, checking on her after she learned she had
been vomiting, asking Nurse Clyde if she could give
her a Gatorade, and giving her a Gatorade. Purdy also
reasonably believed that Madison was receiving
treatment from medical personnel, as Nurse Clyde
was aware of Madison’s condition and seeing her.
Purdy knew that Madison looked thin and that she
was throwing up, but she did not know the severity of
her situation. Purdy attempted to help Madison how
she could. Purdy, as a nonmedical corrections officer,
performed her duties as a gatekeeper. Although the
Estate claims that Purdy should have gone around
Nurse Clyde and sought additional medical
assistance, that was not constitutionally required in
this situation.
Purdy’s conduct was objectively
reasonable in light of what she knew at the time.
Accordingly, the court concludes that Purdy is entitled
to qualified immunity.
3.

Gerald J. Ross, Jr.

Deputy Ross saw Madison from the controller room
and helped move her into the observation cell because
she had been vomiting and having diarrhea. As a
nonmedical staff member at the Jail, Ross also had a

54a
gatekeeper role. Deputy Ross knew that Richens had
contacted medical and that they were addressing the
situation.
The Estate argues that there is evidence that Ross
was aware of Madison’s signs of dehydration,
including her consistent vomiting and lack of eating.
Deputy Ross saw Madison eat a little but not much.
Ross had no knowledge that Madison’s symptoms
would lead to her death. Ross worked only the Monday
and Tuesday of the week Madison was incarcerated.
There is no evidence that Madison complained to Ross
about any of her symptoms or that he refused her any
request for treatment. Ross actively helped move her
to an observation cell. He also knew that Richens had
reported Madison’s condition to Nurse Clyde and that
Madison was being treated by medical personnel.
Ross was not required to go around Nurse Clyde to get
additional medical treatment for Madison. Therefore,
the court concludes that Ross acted reasonably and is
entitled to qualified immunity.
4.

Caleb Bird

As with the above Jail staff, Deputy Bird had a
“gatekeeper role.” Deputy Bird had only one limited
encounter with Madison during her incarceration at
the Jail. On Wednesday morning, he brought Madison
her daily medication. When she failed to come to the
door, he took it in to her. When he went in the cell, he
saw vomit. Bird reported what he had seen to Nurse
Clyde.
In accordance with his gatekeeper role, Deputy Bird
acted reasonably in reporting the vomit to Nurse
Clyde. There is no evidence that he delayed in
relaying the information to Nurse Clyde. Bird did not

55a
deny any request from Madison for treatment. There
is no evidence that Madison asked him for help or
asked him to take her to get medical treatment. He
affirmatively told Nurse Clyde what he saw and he
believed that Madison would get the necessary
treatment from Nurse Clyde or that Nurse Clyde
would contact PA Clark or Dr. Tubbs. Although he
stated to this wife that he thought Madison looked like
she would die, he did not actually think she was going
to die. No reasonable juror could conclude that Bird
acted unreasonably or failed to fulfill his gatekeeper
role. Accordingly, the court concludes that Bird is
entitled to qualified immunity under the deliberate
indifference standard.
C.

Medical Personnel
1.

Dr. Kennon Tubbs

The Estate asserts a supervisory liability claim
against Dr. TUbbs, alleging that Dr. Tubbs violated
Madison’s constitutional rights by failing to
implement and train Nurse Clyde on protocols and
procedures regarding what to do upon learning that an
inmate was exhibiting obvious signs of severe
dehydration.
As outlined above, to establish a claim of
supervisory liability under § 1983, the Estate must
show direct personal responsibility, an affirmative
link between the supervisor and the constitutional
violation, and the requisite state of mind. Keith v.
Koerner, 843 F.3d 833, 838 (10th Cir. 2016). A plaintiff
meets the “personal involvement” pong by alleging “a
complete failure to train, or training that is so reckless
or grossly negligent that future misconduct is almost
inevitable.” Id. Alternatively, a plaintiff may meet

56a
this prong by alleging the supervisor “failed to
implement and enforce policies that would have
prevented” the violation. Id. Under the “causation”
prong, a plaintiff must allege the supervisor “set in
motion a series of events that the defendant knew or
reasonably should have known would cause others to
deprive the plaintiff of his constitutional rights.” Id. at
847. Finally, a plaintiff meets the “state of mind”
prong by alleging the supervisor “knowingly created a
substantial risk of constitutional injury” or
“consciously fail[ed] to act when presented with an
obvious risk of constitutional injury of the type
experienced by the plaintiff.” Id. at 848. A supervisor
cannot be held liable simply because he or she was “in
charge of” a facility. Durkee v. Minor, 841 F.3d 872,
878 (10th Cir. 2016).
It is undisputed that no one, including Jail staff,
Nurse Clyde, or PA Clark ever notified Dr. Tubbs that
Madison was exhibiting concerning symptoms before
she died. There is no basis for any claim against
Dr. Tubbs in this case relating to personal
involvement.
Dr. Tubbs’ contractual duties with Duchesne
County were to “provide training, instruction, support,
and a supervisory role of nursing staff on how to
appropriately handle triage, sick calls, medical
protocols, and health care complaints/grievances.” Dr.
Tubbs argues that Nurse Clyde was appropriately
trained to call him or PA Clark if any inmate vomited
over an extended period of time. Nurse Clyde testified
that she knew that constant vomiting over a multi-day
period was a concerning symptom that warranted a
call to Dr. Tubbs or PA Clark. However, there is a
question of fact as to whether Nurse Clyde knew the

57a
extent of Madison’s condition. Although she saw
Madison several times, she disputes that she knew
that she was continuing to vomit over multiple days.
Nurse Clyde was limited by her licensure to do
anything beyond notifying Dr. Tubbs or PA Clark
when an inmate exhibited concerning symptoms or
sending an inmate to the hospital. Because she was
only an LPN, she could not have been trained to do
anything other than call. However, there is a question
as to whether the lack of medical care Madison
received has an affirmative link to Dr. Tubbs’ failure
to train Nurse Clyde about how to properly respond to
certain observable symptoms.
A plaintiff meets the “state of mind” prong of
supervisory liability by alleging that the supervisor
knowingly created a substantial risk of constitutional
injury or consciously failed to act when presented with
an obvious risk of the type experienced by the plaintiff.
The Estate has not presented any prior instances
where Dr. Tubbs was placed on notice that inmates at
the Jail were not receiving adequate medical care. The
evidence shows that both Jail staff and Nurse Clyde
knew to contact medical personnel when an inmate
exhibited concerning symptoms. However, there is no
evidence regarding Nurse Clyde’s specific training.
There were no written procedures, policies, or training
materials. Although there are no prior instances of
Nurse Clyde failing to ensure adequate medical care
at the Jail, there is some question as to whether
Dr. Tubbs’ failure to have any kind of training
materials or written policies for Nurse Clyde to follow
knowingly created a substantial risk of constitutional
injury.

58a
Given the lack of training materials or policies and
the disputed facts in this case regarding Nurse Clyde’s
knowledge of Madison’s condition, any determination
regarding the adequacy of Nurse Clyde’s training is
also called into question. Dr. Tubbs acknowledges
that he was responsible for Nurse Clyde’s training.
Nurse Clyde failed to document Madison’s condition
despite her two visits to the medical clinic and at least
one visit to Madison’s cell. This lack of documentation
calls into question what kind of training Nurse Clyde
had received. In addition, Nurse Clyde failed to
engage in basic follow up with Madison regarding her
condition. When Madison filled out a medical request
form on Tuesday and stated that she had been
vomiting for several days, Nurse Clyde claims she
thought it must have been before Madison came to the
Jail. However, Nurse Clyde’s reliance on her own
assumption highlights a lack of training with respect
to how to identify or document a patient’s condition.
Nurse Clyde should have clarified Madison’s
statements at the time. If Nurse Clyde knew she
should call Dr. Tubbs or PA Clark when a patient had
been vomiting for several days and a patient fills out a
form stating that she has been vomiting for several
days, but the Nurse does not know when the vomiting
occurred, the Nurse should be trained to ask the
patient when the vomiting occurred. A crucial part of
patient triage is understanding the situation
presented by each patient. Nurse Clyde’s job was to
relay information to other medical personnel.
However, there is no evidence that Nurse Clyde was
trained in how to find out or document relevant
information from patients.

59a
If there were no protocols or training for obtaining
relevant information from patients, a constitutional
violation was certain to occur at some point. The
Estate can meet the personal involvement element by
showing training that is so reckless or grossly
negligent that future misconduct is almost inevitable.
Keith v. Koerner, 843 F.3d 833, 838 (10th Cir. 2016).
There is a question of fact as to whether Dr. Tubbs
failed to implement and enforce policies that would
have prevented the constitutional violation. There is
also a question of fact as to whether Dr. Tubbs’ failure
to implement protocol and training set in motion a
series of events that Nurse Clyde to deprive Madison
of her constitutional rights.
A factfinder could
conclude that Dr. Tubbs set in motion a series of
events he knew would lead to constitutional violations
because symptoms like Madison’s were inevitable.
Dr. Tubbs knew that protocols were necessary. There
is a question of fact as to whether Dr. Tubbs failed to
implement protocols on what Nurse Clyde should do in
documenting and relaying information regarding
serious medical conditions. Therefore, there is also a
question of fact as to whether Dr. Tubbs knew that a
lack of protocols would eventually lead to someone’s
serious medical needs not being met.
Dr. Tubbs contends that he is entitled to qualified
immunity as a matter of law because he was
performing quintessential functions of a government
actor and did not knowingly violate Madison’s
constitutional rights. Although Dr. Tubbs was not a
county employee, Tubbs claims that he is entitled to
qualified immunity when undertaking duties to
provide medical care to inmates at the Jail. See West
v. Atkins, 487 U.S. 42, 50 (1988); Jenkins v. Utah

60a
County Jail, 2015 WL 164194, *6–7 (D. Utah Jan. 13,
2015). The Estate, however, argues that qualified
immunity is not available to him because he merely
contracted to provide medical services to the Jail. See
Estate of Grubbs v. Weld Cty. Sheriff’s Office, No. 16CV-714-PAB-STV, 2017 WL 951149, *5 (D. Colo. Mar.
8, 2017) (noting weight of authority declining to extend
qualified immunity “to employees of a private
company providing medical services to inmates”). The
Tenth Circuit “has yet to decide whether or not
qualified immunity is available to employees of a
private company providing medical services to
inmates.” Kellum v. Mares, 657 F. Appx. 763, 768 n.3
(10th Cir. 2016). However, whether or not qualified
immunity is available to a contract doctor, the
questions of fact regarding Dr. Tubbs’ potential
supervisory liability precludes the application of the
qualified immunity defense prior to trial. A genuine
issue exists as to whether Tubbs was deliberately
indifferent to the risk of constitutional injuries like
Madison’s by not establishing procedures or providing
training on what Nurse Clyde should have done in a
case like Madison’s. Accordingly, the court denies
Dr. Tubbs’ motion for summary judgment.
2.

Nurse Clyde

Nurse Clyde argues that the Estate cannot meet the
subjective test for deliberate indifference because
Nurse Clyde took action to address Madison’s medical
needs and she never believed that Madison faced a
serious risk of death or medical harm. The Estate
must show that Nurse Clyde had actual knowledge of
a substantial risk of serious harm to Madison. The
civil law standard of “should have known” is
insufficient. Farmer v. Brennan, 511 U.S. 825, 837

61a
(1994). If Clyde knew of a serious medical risk, but
took reasonable action to avert it, even if unsuccessful,
she cannot be found to have acted with deliberate
indifference. “[I]nadvertent or negligent failure to
provide medical care, however serious the
consequences, does not rise to deliberate indifference
to serious medical needs and is not a constitutional
violation.” Hood v. Prisoner Health Servs., 180 F.
Appx. 21, 25 (10th Cir. 2006). However, the Estate
does not need to prove that Clyde acted or failed to act
believing that harm actually would befall Madison. It
is enough if Clyde acted or failed to act despite her
knowledge of a substantial risk of serious harm. Mata
v. Saiz, 427 F.3d 745, 752 (10th Cir. 2005).
Nurse Clyde contends that she is entitled to
qualified immunity because the Estate cannot show
that she subjectively knew of and disregarded an
excessive risk to Madison’s health. Clyde’s argument,
however, fails because there are questions of fact as to
whether she was subjectively aware of Madison’s
severe dehydration but failed to obtain any medical
treatment for Madison. A genuine issue exists as to
whether Clyde knowingly disregarded a substantial
risk to Madison’s health by not obtaining medical
treatment for Madison’s dehydration.
As the nonmoving party, the Estate is entitled to
have the facts reviewed in the light most favorable to
it and with all reasonable inferences drawn in its
favor. Jones v. Norton, 809 F.3d 564, 573 (10th Cir.
2015). Viewing all the facts in favor of the Estate, the
court concludes that a reasonable jury could find that
Nurse Clyde was deliberately indifferent to Madison’s
medical needs. Madison complained to her on Monday
about vomiting, being unable to keep food and water

62a
down, and soiling her sheets. Clyde also observed
Madison was sick, extremely thin, pale, weak, and
walking like a skeleton. Clyde learned that Madison
had opiates in her system and felt like Madison was
lying about her symptoms. On Tuesday, Madison
continued to look really pale, tired, weak, and moving
slowly. Clyde’s new declaration claims that she was
moving normally, but it contradicts other evidence.
When Clyde saw Madison on Wednesday, she did not
inquire about the symptoms Madison listed on the
form and that had been reported by Bird and Purdy—
vomiting, diarrhea, and an inability to hold down food
and water. And, on Thursday, Clyde did not tell Clark
about Madison until after he had seen every other
inmate on his list. While it is certainly possible that
Nurse Clyde did all that was necessary, it is also
possible that a reasonable jury could find Clyde was
aware of Madison’s severe dehydration and
disregarded the risk to her by not obtaining adequate
treatment. The facts need to be presented to a jury,
and the jury can make credibility determinations.
The court also notes that there are questions of fact
as to Nurse Clyde’s training. If she was not trained
properly, she may not have been deliberately
indifferent. If she was trained properly, it will weigh
on whether she was deliberately indifferent. Because
there are several questions of material fact relating to
Nurse Clyde, summary judgment and qualified
immunity are inappropriate.
CONCLUSION
Based on the above reasoning, Defendant Elizabeth
Richens’ Motion for Summary Judgment [Docket No.
122] is GRANTED; Defendant Jana Clyde’s Motion for

63a
Summary Judgment [Docket No. 133] is DENIED;
Defendant David Boren’s Motion for Summary
Judgment [Docket No. 135] is GRANTED; Defendant
Hollie Purdy’s Motion for Summary Judgment [Docket
No. 136] is GRANTED; Defendant Gerald J. Ross Jr.’s
Motion for Summary Judgment [Docket No. 137] is
GRANTED; Defendant Jason Curry’s Motion for
Summary Judgment [Docket No. 138] is GRANTED;
Defendant Caleb Bird’s Motion for Summary
Judgment [Docket No. 139] is GRANTED; Defendant
Duchesne County’s Motion for Summary Judgment
[Docket No. 140] is GRANTED; and Defendant
Kennon Tubbs’ Motion for Summary Judgment
[Docket No. 141] is DENIED.
Dated this 21st day of January, 2020.
BY THE COURT:
s/Dale A. Kimball
DALE A. KIMBALL
United States District Judge

